<html>
<title> - AN OVERVIEW OF THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION BUDGET REQUEST FOR FISCAL YEAR 2015</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                  AN OVERVIEW OF THE NATIONAL OCEANIC
                     AND ATMOSPHERIC ADMINISTRATION
                  BUDGET REQUEST FOR FISCAL YEAR 2015

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 30, 2014

                               __________

                           Serial No. 113-73

                               __________

 Printed for the use of the Committee on Science, Space, and Technology

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: http://science.house.gov

                              ______

                         U.S. GOVERNMENT PRINTING OFFICE 

88-142 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          


              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              ROBIN KELLY, Illinois
KEVIN CRAMER, North Dakota           KATHERINE CLARK, Massachusetts
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS COLLINS, New York
BILL JOHNSON, Ohio
                                 ------                                

                      Subcommittee on Environment

                 HON. DAVID SCHWEIKERT, Arizona, Chair
JIM BRIDENSTINE, Oklahoma            SUZANNE BONAMICI, Oregon
F. JAMES SENSENBRENNER, JR.,         JULIA BROWNLEY, California
    Wisconsin                        DONNA F. EDWARDS, Maryland
DANA ROHRABACHER, California         ALAN GRAYSON, Florida
RANDY NEUGEBAUER, Texas              VACANCY
PAUL C. BROUN, Georgia               EDDIE BERNICE JOHNSON, Texas
RANDY WEBER, Texas
LAMAR S. SMITH, Texas
















                            C O N T E N T S

                             April 30, 2014

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative David Schweikert, Chairman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     6

Statement by Representative Suzanne Bonamici, Ranking Minority 
  Member, Subcommittee on Environment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     6
    Written Statement............................................     8

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     9
    Written Statement............................................    10

                               Witnesses:

The Honorable Kathryn Sullivan, Undersecretary for Oceans and 
  Atmosphere, U.S. Department of Commerce, and Administrator, 
  National Oceanic and Atmospheric Administration
    Oral Statement...............................................    11
    Written Statement............................................    13

Discussion.......................................................    22

             Appendix I: Answers to Post-Hearing Questions

The Honorable Kathryn Sullivan, Undersecretary for Oceans and 
  Atmosphere, U.S. Department of Commerce, and Administrator, 
  National Oceanic and Atmospheric Administration................    34

            Appendix II: Additional Material for the Record

.................................................................
Submitted statement of Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    56

 
                AN OVERVIEW OF THE NATIONAL OCEANIC AND
                   ATMOSPHERIC ADMINISTRATION BUDGET
                      REQUEST FOR FISCAL YEAR 2015

                              ----------                              


                       WEDNESDAY, APRIL 30, 2014

                  House of Representatives,
                               Subcommittee on Environment,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:15 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. David 
Schweikert [Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Schweikert. The Subcommittee on Environment will 
come to order.
    Good morning, everybody. This should actually be hopefully 
an interesting hearing and the doctor has actually been one of 
the Committee's favorites because we have considered you to 
always be very forthcoming in discussions, so appreciate having 
you here.
    You know, today's hearing is entitled ``An Overview of the 
National Oceanic and Atmospheric Administration Budget Request 
for the 2015 Fiscal Year.'' In front of you are packets 
containing the written testimony, biographies, truth-in-
testimony disclosures of today's witness.
    I would like to recognize myself for a few minutes here and 
we will just get ourselves going.
    NOAA's 2015 budget request is $5.5 billion, which is an 
increase of, what, 3.3 percent from the 2014. Some of the 
questions that I believe you will be hearing today are going to 
revolve around the satellite program and continuing to increase 
as a percentage of your total budget. My understanding now is 
it will consume about 40 percent of NOAA's budget, and in the 
2015 budget request, there is $2.2 billion for NOAA's satellite 
office. The two main satellite systems are the Joint Polar 
System--I think we refer to it as, what, JPSS--and the 
Geostationary Operational Environmental Satellite, the GOES. 
Two satellites provide up to 90 percent of the critical data 
needed to make our weather forecast.
    I would like some discussion, whether it be from questions 
or you, Dr. Sullivan. Is there going to be a gap and how will 
that gap be fulfilled? And are there--what optionality is 
there? Is there a private optionality and how long they expect 
a gap in that data?
    The second thing that I believe you will have multiple 
questions is in regards to the supercomputing power and the 
ability to manage the scale and the size of the data you have 
considering the current holds that are out there because of the 
contract with IBM and the sale to China. And I know many of us 
would like to discuss with you what options are there. And Dr. 
Sullivan, as you are speaking, I would love for you to go a 
little further from our previous conversation of sharing with 
us a sort of the mechanics you already have in place with 
universities and private industry of management of data, speed 
of data, and total bulk time that you have for your 
supercomputing and your collection of crowd data.
    And with that, I would like to recognize Ms. Bonamici, the 
Ranking Member.
    Ms. Bonamici. Thank you very much, Mr. Chairman, for 
holding this morning's hearing to examine the President's 
budget request for NOAA, the National Oceanic and Atmospheric 
Administration.
    Welcome back, Dr. Sullivan, and I congratulate you on being 
named one of Time magazines 100 most influential people. That 
is a very nice article and some very nice words from Senator 
Glenn.
    As we face--find ourselves facing one of the biggest 
environmental challenges of our time, climate change, we are in 
need of your national leadership and advocacy on this issue, as 
well as other important issues under NOAA's jurisdiction. I 
thank you very much for being here and I am looking forward to 
today's discussion about NOAA's priorities.
    NOAA is a critically important agency with helping our 
communities, our economy, and our ecosystems remain healthy and 
resilient in the face of an ever-shifting environment. NOAA 
conducts state-of-the-art research to understand and predict 
changes in weather and climate, as well as of the oceans and 
along our coasts. The science used to create products and 
services that inform decision-making by a diverse set of 
stakeholders, NOAA helps my constituents along the coast of 
Oregon decide when it is safe to go out fishing. They aid my 
constituents in Yamhill County as they grow grapes that become 
Oregon's world-famous Pinot Noir. They assist people in Oregon 
and across the country in planning for and responding to 
extreme weather and climate events like heavy precipitation, 
flooding, and the devastating storms impacting the South and 
the Midwest. And NOAA helps all of our constituents in similar 
ways.
    I am pleased that the President's budget request recognizes 
the importance of NOAA and gives the agency a prominent role in 
the Administration's efforts to prepare the United States for 
the impacts of climate change. The budget makes critical 
investments in NOAA's observational infrastructure, which 
includes environmental satellites that not only serve as the 
foundation for our weather forecast but also provide critical 
information about the opening of the Arctic Circle to maritime 
commerce and energy development.
    The proposed budget also recognizes that the demand for 
climate data and other information, especially at the regional 
level, is growing. It seeks to address this need for regional 
information and tools by expanding NIDIS, the National 
Integrated Drought Information System, to include, among other 
areas, the Pacific Northwest; by improving our understanding of 
ocean acidification, which will help the shellfish industry 
adapt and the fishing industry prepare and by operationalizing 
ecological forecasting of harmful algal blooms that pose a 
threat to human health.
    Overall, I am pleased with the President's budget request 
for NOAA but do have some concerns I would like to briefly 
mention. Specifically, as the Chairman noted, although the 
Joint Polar Satellite System, or JPSS, seems to be on track and 
in fact it was recently announced that the first of five 
instruments that will fly on JPSS-1 is ready for installation, 
I do remain concerned about the risks associated with the 
likely gap in polar data and NOAA's plans to mitigate the 
impact of the gap. I hope to gain a better understanding today 
of the agency's efforts to implement a mitigation plan.
    Additionally, as you know, off the West Coast lies the 
Cascadia Subduction Zone when--unfortunately not if but when--
another earthquake occurs on this fault, it will trigger a 
massive tsunami with potentially catastrophic results. I am 
sure you can understand my concern and that of my constituents 
with the proposed elimination of education and awareness grants 
through the National Tsunami Hazard Mitigation Program, grants 
that are designed to help communicate threats to vulnerable 
communities and assist in the development of response 
strategies.
    I would like to hear from you, Dr. Sullivan, about how NOAA 
is working to increase resiliency in communities threatened by 
tsunamis and I look forward to working with you as we develop 
legislation to reauthorize the Tsunami Warning and Education 
Act.
    Mr. Chairman, thank you again for holding this hearing. I 
look forward to working with you and our colleagues to ensure 
that NOAA has the resources it needs to fulfill its critical 
mission to protect lives and property and to enable commerce 
through science, service, and stewardship.
    Dr. Sullivan, thank you again for being here and for your 
service to the Nation.
    Mr. Chairman, thank you and I yield back the balance of my 
time.
    [The prepared statement of Ms. Bonamici follows:]

           Prepared Statement of Subcommittee on Environment
                Ranking Minority Member Suzanne Bonamici

    Thank you, Mr. Chairman for holding this morning's hearing to 
examine the President's budget request for NOAA, the National Oceanic 
and Atmospheric Administration. I'd like to welcome back Dr. Sullivan 
and congratulate her on being named one of Time Magazine's 100 most 
influential people. (Those are some very nice words from Senator John 
Glenn). As we find ourselves facing one of the biggest environmental 
challenges of our time--climate change--we're in need of your national 
leadership and advocacy on this issue and I thank you very much for 
being here. I'm looking forward to today's discussion about NOAA's 
priorities in the proposed budget.
    NOAA is a critically important agency tasked with helping our 
communities, economy, and ecosystems remain healthy and resilient in 
the face of an ever-shifting environment. NOAA conducts state of the 
art research to understand and predict changes in weather and climate, 
as well as in the oceans and along our coasts. This science is used to 
create products and services that inform decision-making by a diverse 
set of stakeholders.
    NOAA helps my constituents along the coast of Oregon decide when 
it's safe to go out fishing; they aid my constituents in Yamhill County 
as they grow the grapes that become Oregon's world-famous pinot noir; 
and they assist people in Oregon, and across the country in planning 
for, and responding to, extreme weather and climate events like heavy 
precipitation, flooding, and the devastating storms impacting the south 
and Midwest. And NOAA helps all of our constituents in similar ways.
    I am pleased that the President's budget request recognizes the 
importance of NOAA and gives the agency a prominent role in the 
Administration's efforts to prepare the United States for the impacts 
of climate change. The budget makes critical investments in NOAA's 
observational infrastructure, which includes environmental satellites 
that not only serve as the foundation for our weather forecasts, but 
also provide critical information about the opening of the Arctic 
Circle to maritime commerce and energy development.
    The proposed budget also recognizes that the demand for climate 
data and other information, especially at the regional level, is 
growing. It seeks to address this need for regional information and 
tools by expanding the National Integrated Drought Information System 
(or NIDIS) to include, among other areas, the Pacific Northwest; by 
improving our understanding of ocean acidification, which will help the 
shellfish industry adapt and the fishing industry prepare; and by 
operationalizing ecological forecasting of harmful algal blooms that 
pose a threat to human health.
    Overall, I am pleased with the President's budget request for NOAA, 
but I do have some concerns that I would like to briefly mention. 
Specifically, although the Joint Polar Satellite System or JPSS seems 
to be on track--and in fact, it was recently announced that the first 
of five instruments that will fly on JPSS-1 is ready for installation--
I remain concerned about the risk associated with a likely gap in polar 
data and NOAA's plans to mitigate the impact of this gap. I hope to 
gain a better understanding today of the agency's efforts to implement 
a mitigation plan.
    Additionally, as you know, off the coast of Oregon lies the 
Cascadia Subduction Zone. When--unfortunately, not if--another 
earthquake occurs on this fault, it will trigger a massive tsunami with 
potentially catastrophic results. I am sure you can understand my 
concern with the proposed elimination of education and awareness grants 
through the National Tsunami Hazard Mitigation Program, grants that are 
designed to help communicate threats to vulnerable communities and 
assist in the development of response strategies. I'd like to hear from 
Dr. Sullivan about how NOAA is working to increase resiliency in 
communities threatened by tsunamis, and I look forward to working with 
you as we develop legislation to reauthorization the Tsunami Warning 
and Education Act.
    Mr. Chairman, thank you again for holding this hearing and I look 
forward to working with you and our colleagues to ensure that NOAA has 
the resources it needs to fulfill its critical mission to protect lives 
and property and to enable commerce through science, service, and 
stewardship.
    Dr. Sullivan, thank you again for being her today and for your 
service to the Nation.
    Mr. Chairman, I yield back the balance of my time.

    Chairman Schweikert. Thank you, Ranking Member Bonamici.
    Now, we would like to recognize Chairman Smith, the 
Chairman of the Full Committee, for unlimited amount of time.
    Chairman Smith. Thank you, Mr. Chairman, and thank you, 
Administrator Sullivan, for being with us here today. And let 
me congratulate you on being named one of Time magazine's 100 
most influential people of 2014.
    Our Committee oversees NOAA's more than $5 billion budget. 
NOAA is responsible for critical science activities related to 
oceans, weather, and climate.
    Today, we are here to discuss the President's Fiscal Year 
2015 budget request for NOAA of $5.5 billion, a 3.3 percent 
increase over 2014 levels. While I support many of these areas 
of research and forecasting, other parts of the President's 
budget request are harder to justify. For example, the 
Administration's request substantially increases funding for 
climate research and for some noncritical climate satellite 
activities. But funding for the National Weather Service and 
weather forecasting research is essentially flat.
    Almost $190 million is requested for climate research, more 
than twice the amount dedicated to weather research. There are 
13 other agencies that are involved in climate change research, 
and according to the Congressional Research Service, they have 
spent $77 billion between 2008 and 2013.
    Unfortunately, NOAA's models do not match up with observed 
changes and have not predicted regional climate changes. And 
NOAA's website, Climate.gov, includes non-peer reviewed 
materials for children that in my view promote climate 
alarmism. These misguided priorities are troubling. Instead of 
hyping climate alarmism, NOAA should focus its efforts on other 
areas such as improving weather forecasting.
    America's leadership has slipped in severe weather 
forecasting, and European weather models routinely predict 
America's weather better than we can.
    I am also concerned that NOAA's satellite division now 
comprises over 40 percent of the total budget request for the 
agency at over $2 billion. In 2008, the satellite budget came 
in under $1 billion and was roughly 1/4 of NOAA's overall 
spending. The budget for this office has ballooned dramatically 
over the last decade. For instance, the Joint Polar Satellite 
System program has been plagued with runaway costs and 
mismanagement, which raises questions about future funding for 
the project and its expected launch dates.
    Even NOAA's own optimistic schedule would still leave us 
with a gap for critical weather data in the middle part of this 
decade. Meanwhile, the chronic cost overruns of NOAA's 
satellites have forced significant reductions in funding for 
important activities in areas such as oceans, fisheries, and 
weather.
    NOAA is a mission-oriented agency, and this Committee 
supports these core priorities. We face fiscal constraints that 
force us to make difficult choices about our science and 
technology resources. Rather than devoting limited dollars to 
duplicative and alarmist climate change activities, NOAA in my 
view should focus on research and forecasting capabilities that 
do in fact protect lives and property.
    Thank you, Mr. Chairman. I will yield back, but on the way 
to yielding back, let me apologize to the Administrator. I have 
a Judiciary Committee markup that began 25 minutes ago I am 
going to have to tend to and I hope to return in time to ask 
questions. So I yield back. Thank you.
    [The prepared statement of Mr. Smith follows:]

      Prepared Statement of Full Committee Chairman Lamar S. Smith

    Thank you Chairman Schweikert, and thank you Administrator Sullivan 
for being with us here today. Let me congratulate you on being named 
one of Time Magazine's 100 most influential people of 2014.
    Our Committee oversees NOAA's more than five billion dollar budget. 
NOAA is responsible for critical science activities related to oceans, 
weather and climate.
    Today we are here to discuss the President's FY15 budget request 
for NOAA of $5.5 billion, a 3.3 percent increase over 2014 levels. 
While I support many of these areas of research and forecasting, other 
parts of the President's FY15 budget request are harder to justify.
    For example, the Administration's request substantially increases 
funding for climate research and for some non-critical climate 
satellite activities. In comparison, funding for the National Weather 
Service and weather forecasting research is essentially flat.
    Almost $190 million is requested for climate research, more than 
twice the amount dedicated to weather research. There are 13 other 
agencies that are involved in climate change research, and according to 
the Congressional Research Service, they have spent $77 billion between 
2008 and 2013.
    For example, in addition to NOAA, NASA, the Department of Energy, 
and the National Science Foundation also carry out climate change 
modeling.
    Unfortunately, NOAA's models do not match up with observed changes 
and have not predicted regional climate changes. And NOAA's website, 
Climate.Gov, includes non-peer reviewed materials promoting climate 
alarmism for children.
    These misguided priorities are troubling. Instead of hyping climate 
alarmism, NOAA should focus its efforts on other areas such as 
improving weather forecasting.
    America's leadership has slipped in severe weather forecasting. 
European weather models routinely predict America's weather better than 
we can.
    I am also concerned that NOAA's satellite division now comprises 
over 40 percent of the total budget request for the agency, at over $2 
billion. In 2008, the satellite budget came in under a billion dollars 
and was roughly one-quarter of NOAA's overall spending. The budget for 
this office has ballooned dramatically over the last decade.
    For instance, the Joint Polar Satellite System program has been 
plagued with runaway costs and mismanagement, which raises questions 
about future funding for the project and its expected launch dates.
    Even NOAA's own optimistic schedule would still leave us with a gap 
for critical weather data in the middle part of this decade.
    Meanwhile the chronic cost over-runs of NOAA's satellites have 
forced significant reductions in funding for important activities in 
areas such as oceans, fisheries, and weather.
    NOAA is a mission-oriented agency, and this Committee supports 
these core priorities. We face fiscal constraints that force us to make 
difficult choices about our science and technology resources.
    Rather than devoting limited dollars to duplicative and alarmist 
climate change activities, NOAA should focus on research and 
forecasting capabilities that protect lives and property.

    Chairman Schweikert. Thank you, Mr. Chairman.
    Our witness today is Hon. Kathryn Sullivan, Undersecretary 
of Commerce for Oceans and Atmosphere and Administrator of the 
National Oceanic and Atmospheric Administration, NOAA. And I 
want to make sure the Committee also congratulates you on 
recently being confirmed as the Administrator for NOAA and also 
being named one of Time magazine's 100 most influential people 
in 2014, which I think all of us have now mentioned. We all 
wanted to make sure we got it in. There is no envy there at 
all.
    Previously, Dr. Sullivan served as Assistant Secretary of 
Commerce for Environmental Observation and Predictions, as well 
as performing the duties of NOAA's Chief Scientist. She is a 
distinguished scientist, renowned astronaut, and intrepid 
explorer. We will later find out what that is. And, Dr. 
Sullivan, you earned your doctorate in geology.
    Dr. Sullivan, you have five minutes and I believe you know 
the routine, yellow light, talk faster.

          TESTIMONY OF THE HONORABLE KATHRYN SULLIVAN,

           UNDERSECRETARY FOR OCEANS AND ATMOSPHERE,

                  U.S. DEPARTMENT OF COMMERCE;

              AND ADMINISTRATOR, NATIONAL OCEANIC

                 AND ATMOSPHERIC ADMINISTRATION

    Dr. Sullivan. Thank you, Mr. Chairman, Ranking Member 
Bonamici, Members of the Committee.
    First, before starting my testimony, I want to express my 
condolences to all of those who were touched by the severe 
weather that swept through many States over the past 4 days. 
Our NOAA forecasters and staff are on the frontlines in such 
events providing warnings and information to their neighbors--
your constituents--that help them avoid, cope with, and become 
weather-ready in the face of this fearsome power of nature. I 
am proud of the work they do.
    In recent events, they gave stakeholders accurate outlooks 
6 days in advance and timely warnings thanks to reliable 
environmental intelligence our Storm Prediction Center in 
Norman, Oklahoma, produces. We know there is still more that 
can be done and I will need your help with that, as I have 
detailed in my written statement.
    I am here today to talk about the President's Fiscal Year 
2015 proposal for the NOAA budget. I, like you, believe that 
NOAA is one of the most important and valuable service agencies 
in the United States Government. Our enterprise of observing 
systems, forecasts, and assessments is designed to provide the 
foresight and information people need to live safely and well 
on this dynamic planet, and it works. In NOAA we call this 
information ``environmental intelligence'' and producing it is 
at the core of our mission.
    The environmental intelligence and related decision support 
services that NOAA provides are in higher demand today than 
ever before. From forecasting short-term extreme weather events 
to providing the data that help ensure safe navigation and the 
smooth flow of commerce to sustaining and promoting 
economically viable fisheries, this budget request makes 
disciplined and targeted investments to sustain and advance 
these critical missions.
    For now, I would like to emphasize just three important 
areas--investment areas of the budget. First, NOAA's global 
observing systems are the indispensable foundation of our 
Nation's environmental intelligence. This budget proposes 
disciplined, targeted investments in that infrastructure. And I 
would highlight for the moment NOAA's fleet of research 
vessels. Without investments now, our fleet will shrink by 50 
percent by 2028, which will severely degrade stock assessments, 
nautical charting, buoy maintenance, and research. That is why 
we request funding for a new multiuse ocean survey vessel that 
can work in any ocean with greater data gathering capability 
than current NOAA vessels.
    Second, communities and businesses are demanding NOAA's 
environmental information over many timescales to help them 
protect assets and plan for the future. We must keep pace with 
this demand. This budget invests in the data and information 
services that promote community and economic resilience in 
advance of and in the aftermath of severe events. In the Fiscal 
Year 2015 budget, we propose targeted increases that will help 
build capacity for response and resilience in the critical need 
areas of coastal inundation and drought, ecological forecasting 
of harmful algal blooms, and the understanding of potential 
environmental impacts from increasing commerce in the Arctic.
    Third, we must be able to attract and retain the best 
talent to ensure that NOAA can effectively engage with our 
partners and efficiently deliver environmental intelligence. To 
do this, we must invest in our people and the administrative 
services that support them. I am keenly focused on achieving 
organizational excellence within NOAA. No business can succeed 
if its essential support services fall behind the pace and the 
demand of the outside world. But that is just what has begun to 
happen at NOAA.
    One point to illustrate, as of Fiscal Year 2012, NOAA has 
one human resources representative serving 150 employees. 
Looking at comparable agencies like NIST, the Coast Guard, and 
NASA, NOAA is underfunded by almost 1/3. And our capacity is 
some--only about--is 40 percent below that of the average U.S. 
company, according to data recently published in the Wall 
Street Journal. We must reverse this trend if the agency is to 
function at the level that our citizens, the Congress, and our 
customers and partners demand. I look forward to working with 
the members of this committee and our partners and constituents 
to achieve the goals we articulate through the implementation 
of our Fiscal Year 2015 budget.
    And I thank you for the opportunity to testify before you 
today.
    [The prepared statement of Ms. Sullivan follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Schweikert. I want to thank our witness. And reminding 
all members that our rules limit us to 5 minutes, I am going to 
give myself five minutes here.
    And a couple of the questions I touched with you in regards 
to the opening statement, let's sort of walk through them. 
Explain to me and help me understand what has been referred to 
as sort of the satellite coverage gap and what is being done to 
mitigate that and what optionality do you have.
    Dr. Sullivan. The prospect of the gap, Mr. Chairman, arises 
from the recasting of satellite programs back in 2009 and 
regaining a smooth production cadence, budget control, schedule 
control, and cost control. We have those now well in hand on 
the polar program.
    When you look at the projected lifetimes of the current 
assets in orbit and the time to deliver the new ones, the 
statistical analyses with different assumptions say, gee, you 
might not get there in time. So we are laser-focused on four 
key things. We are managing the current on-orbit assets to 
maximize the livelihood. We are going to stick the JPSS-1 
launch date, and the past 18 to 20 months of schedule and 
budget performance I believe indicate we are on the right track 
to do that.
    Chairman Schweikert. Now, Doctor, within that point what do 
you think the gap will be?
    Dr. Sullivan. Well, we can spend probably this whole 
hearing block and many others, Mr. Schweikert, debating 
statistical assumptions that would give you different analysis 
of that.
    Chairman Schweikert. Just your best guess.
    Dr. Sullivan. I am not even focusing on what the best guess 
is because it is all so fluid. Statistical analyses can be 
slanted or come up with all sorts of answers. I am focusing on 
manage the asset we have to protract its life and stick the 
launch date.
    In addition, we are focused on the mitigation plans that we 
have discussed with this committee and other Members of the 
Congress in the past year, and that is to understand what if 
any additional data sources could be brought online as a hedge 
against a gap, what improvements to our forecast enterprise 
could we make to lessen the impact of a gap, should we have 
one, and a whole plethora of other activities that we have 
detailed in a prior testimony.
    Chairman Schweikert. That pleases me to hear that within 
your optionality, we will use that word again, you will also 
look at what other sources might be out there, what other data 
could be purchased or even short-term satellite coverage.
    Dr. Sullivan. We are looking at that. Our criteria of 
course would be viable, proven capability to deliver in the 
time frame required.
    Chairman Schweikert. Okay. Doctor, just because it is an 
area of interest and being down to two minutes and 40 seconds, 
I wanted to talk about what you believe the future of data 
gathering is, particularly as you and I have already started to 
discuss sort of the crowdsourcing of data and all the 
instruments that we all now carry in our lives, whether it be 
our cars, our handheld computers, those who have home weather 
stations. What does that mean to you and what does it bring to 
you?
    Dr. Sullivan. That is a trend that is overtaking all of us 
and we are watching very carefully. My own view is it is going 
to play out on a number of different fronts. If you look at 
during severe weather events, NOAA and other partners already 
do crowdsource data. We get rain reports, snow reports, tornado 
reports from people on the ground, through social media. The 
delivery of a measurement directly from a cell phone into the 
production weather model I think will take a longer time to 
attain. There is work yet to be done to really be sure we 
understand how to handle the various reliabilities, the various 
precisions that that menagerie of instrumentation might have. I 
think the progress in solution we may eventually make to that 
will come through a combination of both government, academic, 
and private sector efforts. And it is afoot right now. We are 
watching it all around us and it is already affecting real-time 
weather forecasting both for NOAA forecasters and for our 
value-added partners in the broadcast and weather enterprise--
commercial weather enterprise.
    Chairman Schweikert. Okay. Can you share with us and the 
committee difficulties that are out there because of the IBM 
sale and your access to large data crunching and management?
    Dr. Sullivan. The potential sale by IBM of their Lenovo 
unit is something that the Treasury Department is tracking 
closely and I have to defer all questions about that particular 
sale to them.
    In terms of large data handling, we had challenges on a 
couple of fronts. Our operational supercomputing that produces 
the production runs every three hours is one that we are on 
good track to come up to par with the Europeans on. We have--
our performance has lagged behind them on certain weather 
events, certainly not on all weather events over the past few 
years predominately because our operational supercomputer lags 
behind theirs. So that one is catching up.
    When it comes to--I am sorry. I just lost my train of 
thought.
    Chairman Schweikert. No, it is okay. I know some of this 
you do not control and actually in many ways with my fixation 
on crowdsourcing of access you may actually need substantially 
more capability in your computer side.
    I am holding an article that was written by a researcher I 
believe in New York and I haven't had--I am sorry, University 
of Washington. Forgive me. And it was only given to me as I was 
literally walking in the meeting, but the author of this is 
actually sort of claiming that we have moved sort of down to 
fourth place in weather forecasting accuracy, data collection. 
Any thoughts, any comments? Is it even something you have seen?
    Dr. Sullivan. I haven't seen it so I wouldn't wish to 
comment on it.
    Chairman Schweikert. Okay. My very last question, I know I 
am slightly over time. As an agency, you produce lots of 
rigorous scientific data, proposals, mechanics. How do you do 
sort of your peer-review on your methodology? Do you continue 
with what you are doing sort of a very open access to 
information? I am just sort of curious if that is something 
that has hit your desk.
    Dr. Sullivan. It hits my desk and is on my radar screen 
very much because it goes to the heart of our commitment to 
scientific integrity and proper methods for assuring that. In 
the weather and the climate domain, which, by the way, are just 
different timescales of the phenomena of this planet, we are 
tightly interlaced with the best researchers globally, not just 
in the United States. The development of models nowadays is 
quite commonly--to use a loose term--a community playpen where 
various models are rigorously tested and compared by everybody 
looking----
    Chairman Schweikert. I am not even sure you would say 
loosely. My impression is it is all over the world now.
    Dr. Sullivan. Oh, it definitely is all over the world and 
it is a very robust, vibrant, challenging cross comparison of 
models, of methods, of techniques.
    Chairman Schweikert. Do you believe NOAA continues to sort 
of adhere to that openness where it is a community of thought 
that is vetted back-and-forth but accepts lots of inputs in, 
you know, accepts and rejects, but is open to the debate?
    Dr. Sullivan. I believe we are very open to the debate 
around quality rigorous scientific data and findings and 
judgments, absolutely.
    Chairman Schweikert. And forgive me for asking the question 
a bit ethereally.
    All right. And with that, Ms. Bonamici.
    Ms. Bonamici. Thank you, Mr. Chairman. Thank you, Dr. 
Sullivan, for being here.
    I want to talk about disaster preparedness and the 
importance of that and focus on the coastal environment where 
there is such enormous and potentially grave consequences, so I 
wanted to talk about two specific topics that you raised in 
your testimony, ocean acidification. The ocean is becoming more 
acidic as it absorbs excess carbon dioxide from the air, and 
this change has the potential to, among other things, disrupt 
aquatic food webs.
    And in Oregon the shellfish industry has already seen the 
harmful effects and I want to point out that even for 
Representatives who don't represent coastal communities, their 
constituents eat shellfish and restaurants need it and it is an 
important industry. The fishermen really dread what they might 
learn about damage to the food chain from ocean acidification. 
The budget request proposes an increase of $8.9 million for the 
ocean acidification program, so can you please discuss the need 
for that program and especially how NOAA is translating its 
research into practices and strategies that benefit the 
industry?
    Dr. Sullivan. Thank you for that question. This is really 
one of the silent creeping hazards of our changing planet. NOAA 
seeks to better understand the processes and causes behind 
ocean acidification and in particular, as you point out, to 
develop methods that can translate our understanding and our 
monitoring of the natural environment into this thing I keep 
calling environmental intelligence, actionable and action-
oriented timely information that, as you know from your State, 
enables your constituents to manage the water intakes to their 
shellfish farm and protect their brood stock. So that is very 
much one of our key focal points in coastal resiliency 
generally.
    The Northwest Coast acidification is one of the principal 
risks. The Great Lakes and the Gulf of Mexico, harmful algal 
blooms are also of concern. So how do we help coastal 
communities? How do we help provide them the information that 
beach managers, fishing managers, shellfish processors can 
actually apply to keep their communities, their businesses, 
their families safe?
    Ms. Bonamici. Thank you. And also I wanted to talk about 
the Tsunami Warming and Education Act, which we will likely be 
considering and I am glad we are going to take that up.
    For constituents up and down the coasts who grew up 
memorizing tsunami evacuation routes, this can't come soon 
enough. In that regard, I was concerned to see that the 
President's budget includes a reduction to education and 
awareness program grants under the National Tsunami Hazard 
Mitigation Program. How does NOAA intend to ensure our regional 
decision-makers are able to develop and execute effective 
tsunami response plans without that grant program in place?
    Dr. Sullivan. Well, first of all, let me thank you for your 
support for the reauthorization of the Tsunami Warning and 
Education Act. That is a valuable piece of legislation that we 
do appreciate.
    With respect to the Fiscal Year 2015 budget, I also want to 
assure you that this in no way affects our principal 
responsibility, which is to provide those warnings and alerts 
that enable communities to take prompt action and get out of 
harm's way in the case of the tsunami. It does not affect the 
operability and the maintenance of the DART buoys, the key 
monitoring systems on the seafloor that feed that, does not 
affect our monitoring and collaboration with the U.S. 
Geological Survey that can access their seismic monitoring. It 
does not affect the ongoing relationships and education and 
connections between our National Weather Service folks and 
communities along the coast.
    Regrettably, in the tight fiscal climate we are in where we 
cannot--we don't have the means to advance all of the things we 
would wish to advance, we had slowed--we proposed in this 
budget to slow down to curtail the added grants that could 
expand the education footprint, but we are not curtailing the 
tsunami-ready community program that exists with existing 
communities. So our core responsibilities aren't changed. The 
rate--some rate of progress has slowed down.
    Ms. Bonamici. Thank you. And I look forward to having the 
conversation where we take up that legislation.
    And on a related note, I often discuss the importance of 
NOAA's research and outreach activities in the community, and 
our constituents understand that NOAA is doing its best with 
limited resources. But as you explained, there is unmet need. 
But as you also acknowledge, there are fiscal challenges. So I 
was pleased to see the budget request that proposed a three 
percent increase, but I was also dismayed that the House 
Appropriations Committee is proposing a one percent cut to the 
budget. So considering the unmet need for your agency's work, 
can you give the Committee a brief idea of what a one percent 
funding cut compared to a three percent increase might mean for 
the work that you do for our constituents?
    Dr. Sullivan. It would take me more time that we have left 
to enumerate all the different service needs, drought 
information, water planning information, El Niino--refining the 
El Niino forecasts so we can do a better job helping California 
and the Western States know in advance if the drought will 
break, when the pattern might shift, bringing our high-
performance computing up to par and keeping on the pace that we 
are currently on, which will put us back on par with the 
Europeans and anybody else and remove the bulk of whatever I 
suspect underlies the ranking you have in that article. 
Weather, climate, understanding the ocean, keeping pace and 
understanding fish stocks so that our coastal fishing 
communities have vital economies all across the front, there 
already are unmet needs.
    Ms. Bonamici. Thank you. And I am going to just ask will 
you please focus on the importance of climate research to the 
work that you do?
    Dr. Sullivan. I would be delighted to focus on that. NOAA 
exists to understand this planet and how it works and turn that 
information into useful actionable information. That really 
requires us to understand across all of the timescales that the 
planet actually has. So in NOAA, weather is phenomena and the 
ocean in the atmosphere up to about two weeks in length and 
climate is assembling those same phenomena over longer 
timescales. So our ability, for example, to help those water 
managers that I was referring to in California or ranchers in 
the Southwest, help them know what is their outlook for the 
next season for drought, that comes from understanding how the 
tropical Pacific climate system works on seasonal scales, that 
thing called El Niino or scientifically the El Niino southern 
oscillation, being able to give these six-day outlooks that we 
gave to the South Central States in this most recent set of 
severe storms, it doesn't come from focusing harder on weather; 
it comes from having focused more richly on oceans and coupling 
that understanding with our understanding of the atmosphere.
    The range of information needs that American citizens and 
business have--businesses have is across a huge range of 
timescales. And if we aspire, as NOAA is chartered to do, to 
respond to those demands, to those really urgent needs across 
the whole range of scales, we have to be able to investigate 
and study and understand the many different timescales that are 
natural to this planet. To use a metaphor, we have to be able 
to play the whole keyboard if we are going to play the symphony 
that our communities are really asking us to play.
    Ms. Bonamici. Thank you, Dr. Sullivan.
    And thank you, Mr. Chairman, for allowing me to----
    Chairman Schweikert. Thank you, Ranking Member.
    Ms. Bonamici. Thank you.
    Chairman Schweikert. And, Vice Chairman, Mr. Bridenstine.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    Thank you for being here, Dr. Sullivan. It is always a 
privilege to get a chance to talk to you. I wanted to delve 
into the Ocean and Atmospheric Research office, OAR, of course 
the research arm of NOAA. And it looks like the budget request 
suggests a request for an additional $31 million over last 
year, is that correct?
    Dr. Sullivan. I believe that is a correct figure.
    Mr. Bridenstine. And about $31 million, the request--the 
President's budget request has a climate research subprogram 
increase of about $30.5 million. So the majority of OAR's 
budget request, the majority of the increase, in fact the vast 
majority, $30.5 million out of $31 million, is for climate 
research, is that correct?
    Dr. Sullivan. Yes, specifically for improving the drought 
information products that we are providing to Western States. I 
think about 11 of the States represented on this committee in 
fact are in something between severe and extreme drought right 
now. So again that label ``climate'' in the NOAA budget means a 
certain thing. It means the information products that are 
pertinent to those longer timescales.
    Mr. Bridenstine. The National Weather Service in this 
budget request under OAR is being cut by about $4 million, is 
that correct?
    Dr. Sullivan. I don't have that detailed figure just in 
front of me.
    Mr. Bridenstine. Well, I have it here and it is about $4 
million.
    Dr. Sullivan. Okay.
    Mr. Bridenstine. The challenge is, and you are probably 
aware we have had a number of deaths in Oklahoma and Arkansas 
over the last few days, and as you can imagine, when the 
priority of NOAA is to save lives and property, which is what 
you have told us the priority is, and yet the research elements 
are going to climate research as opposed to what we know we can 
do, which is save lives and property today, we are doing this 
in the State of Oklahoma, which is the State I represent.
    At the University of Oklahoma, the National Severe Storms 
Laboratory, we are able to prove that we can predict tornadoes 
over an hour in advance now and not just predict but we can 
warn people based on the forecast of a tornado over an hour in 
advance, and yet still this week people have died with less 
than a minute of lead time of warning and all the research 
increases going toward climate change research and not toward 
weather forecasting and warning, which is where we know we can 
save lives and property. Would you address for the Committee 
your commitment to saving lives and property and explain how 
this budget request might do that?
    Dr. Sullivan. Commitment to protecting lives and property 
runs across the entire scale of phenomena that pose hazards to 
the lives and property of Americans from the chronic conditions 
of the drought that are devastating families and businesses 
across California and the Southwest right now to the acute----
    Mr. Bridenstine. Real quick, I am going to interrupt here 
for a second, we have people that died this week that should 
have had more lead time than 1 minute. Do you agree with that?
    Dr. Sullivan. The statistics I have, sir, say that they had 
20 to 29 minutes.
    Mr. Bridenstine. There are people that did. There are 
people that got less. And if we were able to move the 
technologies in the direction where we could get over an hour 
of lead time, guess what, the people would have more heads up 
before the tornado hit their vehicle driving on the highway.
    Dr. Sullivan. Mr. Bridenstine, I completely share your 
desire to have greater lead time for people in Tornado Alley. 
There are a number of things that we can and should do to 
achieve that. One of them I would highlight for this committee 
and that we have requested support for in this budget as well 
is to help us put the Weather Service on a path where it can in 
fact--it has the flexibility to evolve and change and move 
forward more rapidly with technology changes and research 
advances. So helping us evolve the National Weather Service 
should be right up on top of that list if we want to really 
improve the services that we are giving to our people, and we 
certainly do.
    Mr. Bridenstine. Roger that. I yield back.
    Chairman Schweikert. Thank you, Mr. Bridenstine.
    Ms. Edwards, 5 minutes.
    Ms. Edwards. Thank you very much, Mr. Chairman, and thank 
you, Dr. Sullivan, for being here, and thanks again for 
reminding us of the important work that the researchers, 
scientists, engineers, all of the staff at NOAA, all the work 
that they do that keeps us all safe. Obviously all of us would 
like to be safer and there has been no more stark reminder of 
the need for NOAA than the experiences of the last week-and-a-
half to two weeks. And since everybody else did it, 
congratulations again on the Time magazine designation. I want 
to make sure that is across the board here.
    I want to ask you about COSMIC-2. The budget request 
includes an increase of $4.8 million for ground reception and 
processing of COSMIC-2 satellite data provided by Taiwan and 
the United States Air Force. My understanding is that these 
data are not available from any other source. Can you just 
describe the value of the data and the impact that would happen 
for losing this capability?
    Dr. Sullivan. Thank you, Mrs. Edwards. We are very much 
committed to the COSMIC-2 project. Studies by the European 
Centre for Medium-Range Weather Forecasts that have looked at 
the relative contribution to forecast accuracy and reliability 
of different kinds of data have demonstrated the value of 
COSMIC-2 data.
    This is, as you know, radio occultation data collected 
using GPS satellite signals. This is very high-quality data. 
Its reliability is very high. It is valuable in its own right, 
but interestingly, it actually also improves the value of the 
more precise-sounding data from our workhorse instruments on 
the polar satellites. NOAA, as you point out, proposes and 
requests funding in this budget to install the ground system 
that would let us process COSMIC-2 data, now will be designed 
in a way that should there eventually ever be a decision made 
and a viable provider to acquire radio occultation data in a 
different manner could take those data as well.
    So I would say two things. We are very supportive of 
COSMIC-2. It is a tremendously cost-efficient way to go 
forward. It is right now the only proven viable capability in 
hand to attain radio occultation data in the 2016 time frame. 
And to the Chairman's--whip it back to the Chairman's earlier 
question about actions that might help us if we did have a gap 
in the polar satellites, having COSMIC-2 on orbit providing 
those data was highlighted in our independent report as one of 
the most effective things we could do to lessen the damage, 
lessen the degradation in forecasts----
    Ms. Edwards. Right.
    Dr. Sullivan. --that such a gap would create.
    Ms. Edwards. Excellent. Thank you very much. And then I 
want to go to the workforce a minute. NOAA is proposing a 
reduction of $10 million in the elimination of the nine full-
time employees within the National Weather Service as part of a 
consolidation effort of technology support and services in six 
facilities.
    And, you know, there was a recommendation in the 2014 
budget that was essentially rejected by--the Senate was very 
specific in the report language that the Committee did not 
possess the evidence that the National Weather Service has its 
workforce plan completely under control at this time, certainly 
not enough to propose further reductions without NOAA 
addressing why some positions remain unfilled or articulating 
what the proper staffing level is for field offices. I tend to 
agree with that sentiment expressed by Senate appropriators, 
especially in light of the proposed $3 million increase to 
support analysis of NWS workforce and infrastructure.
    Also, I noticed that there is an increase of $12 million 
for corporate services. I don't even know what that is so I 
want you to--if you would, to explain that, but then 
particularly explain how you are going to complete a timeline 
for filling the vacant weather forecasting positions and why do 
we need to eliminate 98 FTEs in the National Weather Service.
    Dr. Sullivan. I am not sure I can do that in 48 seconds.
    Ms. Edwards. Well, try.
    Chairman Schweikert. We will give you 50.
    Ms. Edwards. There you go.
    Dr. Sullivan. No, you are a gentleman and a scholar, sir.
    First, with respect to the information technology officers 
in the capital is that, that proposal is not about the people. 
The IPOs are valuable employees. It is about improving the 
National Weather Service service delivery model and ensuring 
that we are making best use of government resources. I have led 
technology-based businesses before. So has my boss, Secretary 
Pritzker. We both know that you are dead in the water if you 
stop innovating and evolving and keeping pace with the world.
    The fact is that our IT delivery model was developed in the 
age before the internet and has been stagnant since then. 
Regional IT service delivery is just plain out proven industry 
and government best practice. Our current model is 
unsophisticated, outdated, and is not keeping up with the pace 
of technology change. National Academy of Public Administration 
told us plain and simple that we need to provide more robust, 
consistent nationwide services with regional teams, and 
regional teams are a more appropriate way to do that. So that 
is on the ITO.
    We have backlogs of vacancies in many parts of NOAA due 
largely to the unfortunate consequences of sequestration in the 
extreme responses, the extreme consequences and actions that 
that forced all agencies to take, NOAA included. One of them 
that we were forced to obtain was an agency-wide hiring freeze, 
which throttled us back to only the most critical hiring 
positions for the better part of a year. I was delighted to be 
able to lift that freeze at the end of January this year, but 
we still have to work our way out of that backlog.
    And that brings me slightly over the Chairman's time to 
your third point, why an increase in corporate services? That 
is the budget label for what I would call NOAA's back house 
functions, administrative services, grants, contracts, 
acquisition, and our human resources processing. So I am 1/3 
the capacity of many sister agencies. I am 40 percent below the 
capacity of the average United States company on the 
fundamental capacity to make the cranks turn and perform the 
core functions of this organization. That is why I need to 
fortify my corporate services functions. That is what it will 
take to ensure that we can work through hiring actions like the 
ones we need to work through for the Weather Service and the 
fishery service and the ocean service.
    So it all does link together. It all is about letting this 
organization move forward, achieve organizational excellence, 
and be flexible and adaptable to keep pace with the times and 
the urgently growing and changing needs of our public.
    Ms. Edwards. Thank you, Mr. Chairman, for your indulgence.
    Chairman Schweikert. Thank you, Ms. Edwards.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much.
    You know, we have found that contracting out can actually 
save money for the government and thus we have more funds to 
accomplish the missions of government if we let the private 
sector get involved. And, for example, I mean SpaceX has saved 
us already hundreds of millions of dollars by utilizing that 
approach rather than just having the government have launches.
    NOAA is not exempt from this rule. I mean that perhaps NOAA 
could be saving some money by purchasing, for example, 
satellite data to be used by NOAA and government users. And has 
NOAA done some evaluation of that? And where do you stand in 
terms of achieving the actual acquisition of private satellite 
data that would help us determine and reach your goals?
    Dr. Sullivan. It is a very important question, Mr. 
Rohrabacher, and as I am sure you know, we do purchase data 
from commercial vendors in a number of arenas, including the 
weather arena right now. We are not opposed categorically to 
commercial data from satellites, but I would make a few points. 
One is because of the criticality, the daily everyday 
criticality of the weather enterprise to the safety of this 
Nation, we believe we need to adopt the mountain climbers' rule 
with respect to making switches, and that is let go of the 
current handhold only when you really have a firm grasp on the 
next handhold. As you know, that is also--that mimics the 
astronauts' rule of never let go of one tether until you have 
got that other one attached.
    Mr. Rohrabacher. Right.
    Dr. Sullivan. Right now, there are no proven viable 
commercial entities. And I talk about I mean people who can 
show proof positive, not a really spiffy PowerPoint 
presentation about their ability to deliver----
    Mr. Rohrabacher. Have we provided any incentives for the 
private sector to invest in this area?
    Dr. Sullivan. I am not aware of any commercial incentives 
that we have provided but we don't have the kind of budget 
structures or accounts that would really let us do that. We 
have clear policies, clear ground rules. The National Weather 
Service has 16 long-standing criteria for data quality. We buy 
instrumentation and data from vendors that can demonstrate that 
they can meet those constraints.
    I would add one other point, though. I think there is 
another dimension that is very important for us to keep in mind 
in this specific case. Your general point about public-private 
interaction I take, but in this specific case, the United 
States commercial weather enterprise is founded on the premise 
that the foundational data that produce--that are the feedstock 
for NOAA's forecasts are public good. The downstream economic 
benefits garnered off of those data are very, very real and 
quite considerable. There are over 300 private weather 
companies today that use those data as feedstock. There is no 
other weather enterprise on the planet that takes that model of 
a private innovation platform in the data as a public good----
    Mr. Rohrabacher. Yeah.
    Dr. Sullivan. --and produces the private sector value-added 
economic activity on the downstream.
    Mr. Rohrabacher. Um-hum.
    Dr. Sullivan. I would urge before we rush to commercial 
data sources just in particular to ease short-term funding 
pressures that we--and I mean NOAA and this committee, other 
relevant bodies of the Congress and stakeholders--that we 
evaluate carefully and really think through the impacts, the 
intended and the unintended impacts----
    Mr. Rohrabacher. Um-hum.
    Dr. Sullivan. --that might come from monetizing the data 
stream, which I think might well constrict that rich innovation 
we have in 300 private sector companies currently rather than 
continuing to treat it as a public good.
    Mr. Rohrabacher. That is an interesting admonition and I 
think that we should be working on that concept to see if we 
can come up with a formula that meets the criteria that you 
just mentioned.
    Another area, then this goes back to some of the 
fundamental differences that we have here on fundamental 
issues, and Vice President Al Gore, former Vice President Al 
Gore, recently said in an interview that extreme weather events 
are 100 times more common today than they were 30 years ago due 
to global warming and also stated that these events are getting 
more frequent. Are extreme weather events 100 times more common 
today than 30 years ago due to global warming and are they 
getting to be more frequent? It seems that we have had other 
people testifying and other experts suggesting that that is not 
true.
    Dr. Sullivan. I don't--Mr. Rohrabacher, I am not conversant 
enough with those statistics off the top of my head to want to 
attempt to give you detailed answers. I will certainly get back 
to you on that. I do know that our best scientists within NOAA 
are very cautious and leery about attributing specific extreme 
weather events to climate change per se. There is----
    Mr. Rohrabacher. Right.
    Dr. Sullivan. --I have been referring to so many patterns 
and so many timescales interacting to produce the phenomena 
that we experience on Earth. The challenge of attribution is a 
very difficult one.
    Mr. Rohrabacher. Right. You know, I sat through Hurricane 
Hazel back in 1956, and I lived in North Carolina; my father 
was a Marine. We lived at Camp Lejeune.
    Dr. Sullivan. Um-hum.
    Mr. Rohrabacher. And I remember that event very vividly and 
I was surprised to find out that--am I correct that Hurricane 
Hazel was actually more powerful than Hurricane Sandy, although 
the actual damage that was caused was less because Sandy 
happened to have come with a number of factors rather than just 
the one weather factor?
    Dr. Sullivan. Well, I will get back to you on the actual 
recorded hurricane intensity of Hazel because you don't want me 
saying how old I was at that time. But, you know, the damages 
caused are certainly changing as a population density and the 
built infrastructure in coastal zones changes over time.
    Mr. Rohrabacher. Right.
    Dr. Sullivan. So----
    Mr. Rohrabacher. Well, thank you very much, and thank you, 
Mr. Chairman.
    Chairman Schweikert. Thank you, Dana--or, Mr. Rohrabacher.
    And we would never ask that but we are going to tease Dana 
about 1956, so just plan on that.
    And I want to thank Dr. Sullivan for her valuable testimony 
and the members for their questions and comments. The members 
of the committee may have additional questions for you and we 
will provide those to you in writing. The record will remain 
open for two weeks for those additional comments and questions 
from the members.
    And with that, the witness is excused and the hearing is 
closed.
    Dr. Sullivan. Thank you again, Mr. Chairman.
    [Whereupon, at 11:05 a.m., the Subcommittee was adjourned.]
    
    
    
    
    
    
    
    
                              Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by Dr. Kathryn Sullivan

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

 Submitted Statement of Committee Ranking Member Eddie Bernice Johnson

    Thank you Mr. Chairman. I would first like to take this 
opportunity to congratulate Dr. Sullivan. She has appeared 
before our Committee several times, and I am pleased that the 
Senate has confirmed her as Administrator of the National 
Oceanic and Atmospheric Administration. I look forward to a 
productive discussion of the Administration's FY15 budget 
request for NOAA at today's hearing.
    As we all know, NOAA's scientific research conducted in 
support of weather forecasting, fishery management, and coastal 
resiliency plays a critical role in enhancing our understanding 
of the environment and ensuring a strong economy. Underpinning 
many of these efforts are programs that focus on addressing the 
challenges of climate change, such as rising sea levels, 
changes in ocean chemistry and ecosystems, and more severe 
weather. Cutting edge research conducted by the agency is 
necessary to ensure our communities are prepared for the very 
real challenges brought on by a changing climate.
    In fact, many of my colleagues on this Committee come from 
States which are now facing the impacts of our changing 
climate. Droughts in Texas and California have put an 
increased, and in some instances unparalleled, strain on local 
and regional economies, and on the overall public health and 
welfare of our citizens. Our coastal communities face pressing 
challenges presented by rising sea-levels, to say nothing of 
the enormous threat posed by more severe hurricanes.
    Sadly, even this week, dozens of people have lost their 
lives as a result of tornados in the Midwest and South, and 
more than 75 million people were dealing with the threat of 
severe weather in States like Alabama, Mississippi, and 
Oklahoma.
    One of the agencies the American people turn to is NOAA for 
critical information before, during, and after these severe 
events. Whether it is providing forecasts and warnings of 
pending storms, working with state or local decision makers to 
develop effective response strategies, or conducting research 
that improves our understanding of severe weather to enhance 
the resiliency of our communities, it is essential that we 
maintain our commitment to the science done at NOAA.
    Mr. Chairman, the list of industries, local agencies, 
States, and Nations that take climate change seriously is 
growing rapidly and without end. It is long past time that we--
in Congress--take it seriously too. I am happy to see that the 
President's budget request for NOAA emphasizes the agency's 
critical role in helping the United States act on climate 
change. I look forward to discussing these efforts, as well as 
the other important initiatives and programs that are contained 
in NOAA's proposed budget. Thank you, Mr. Chairman and I yield 
back the balance of my time.

                                 [all]
</pre></body></html>
